Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 ADDRESSING VULNERABILITIES
   REPORTED BY MEDICARE
     BENEFIT INTEGRITY
       CONTRACTORS




                    Daniel R. Levinson
                     Inspector General

                      December 2011
                     OEI-03-10-00500
   E X E C U T I V E                    S U M M A R Y


                  OBJECTIVES
                  1. To determine the extent to which the Centers for Medicare &
                     Medicaid Services (CMS) has resolved vulnerabilities reported by
                     Medicare benefit integrity contractors.
                  2. To determine the monetary impact of the reported vulnerabilities on
                     the Medicare program.
                  3. To review CMS’s procedures for tracking, reviewing, and resolving
                     reported vulnerabilities.


                  BACKGROUND
                  One way that Medicare benefit integrity contractors help prevent fraud,
                  waste, and abuse is by identifying program vulnerabilities. This report
                  provides information on the vulnerabilities reported by Medicare benefit
                  integrity contractors in 2009. Within Medicare Parts A and B, Program
                  Safeguard Contractors (PSC) and Zone Program Integrity Contractors
                  (ZPIC) are responsible for benefit integrity; within Parts C and D,
                  Medicare Drug Integrity Contractors (MEDIC) perform that function.
                  PSCs, ZPICs, and MEDICs are required to submit periodic vulnerability
                  reports to CMS. These reports describe vulnerabilities and may include
                  recommendations for resolving them. These reports also may contain
                  the monetary impact of the vulnerabilities on Medicare. For this study,
                  we determined the number and monetary impact of vulnerabilities
                  reported by PSCs, ZPICs, and MEDICs in 2009. We reviewed the
                  actions that CMS took to address or resolve these reported
                  vulnerabilities. We also reviewed CMS’s policies and procedures for
                  tracking, reviewing, and resolving the reported vulnerabilities.


                  FINDINGS
                  As of January 2011, CMS had not resolved or taken significant action
                  to resolve 77 percent of vulnerabilities reported by contractors in
                  2009. Of the 62 vulnerabilities reported by contractors in 2009,
                  48 (77 percent) had not been resolved as of January 2011, nor had CMS
                  taken significant action to resolve them. CMS indicated that of these
                  48 reported vulnerabilities, 20 were “currently under review” and
                  3 required additional analysis to determine whether they were actual
                  vulnerabilities. For the remaining 25, we determined from CMS’s
                  description that no action was taken or that the action taken was not
                  significant. CMS took significant action to resolve 14 of the 62 reported

OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   i
E   X   E C     U T   I    V   E      S   U M      M   A   R Y


                          vulnerabilities, but only 2 of these 14 had been fully resolved by
                          January 2011.
                          Over half of the vulnerabilities submitted by contractors included detailed
                          recommendations for CMS to resolve the vulnerabilities; however, most of
                          the actions that CMS reported taking to resolve them were not the result
                          of these contractor recommendations.
                          Coding and/or billing vulnerabilities were the most common type of
                          vulnerability reported by PSCs and ZPICs. Vulnerabilities related to
                          provider identifiers were the most common type of vulnerability reported
                          by MEDICS.
                          Contractors reported monetary impact for only one-third of
                          vulnerabilities, but their estimated impact was $1.2 billion. Only 21
                          of the 62 vulnerabilities had an associated monetary impact reported by
                          the contractor. According to CMS staff, PSCs and ZPICs are required to
                          report monetary impact, but less than half of their reports included this
                          information. MEDICs are not required to report monetary impact.
                          The estimated impact of these 21 vulnerabilities was $1.2 billion, with
                          the estimated impacts of individual vulnerabilities ranging from $77,692
                          to $803,025,113. None of these vulnerabilities had been resolved as of
                          January 2011, although CMS had taken significant action to resolve four
                          of them, including the two with the largest monetary impact
                          ($803 million and $99 million). For these two vulnerabilities,
                          implementation of corrective actions will not be complete until 2012.
                          The monetary impact for the 17 vulnerabilities that were not resolved or
                          for which significant action had not been taken was estimated to be
                          $202 million.
                          Because monetary impact was reported inconsistently or not at all, the
                          actual monetary impact of the vulnerabilities reported in 2009 could be
                          significantly greater than $1.2 billion.
                          Although CMS has recently begun developing procedures to
                          consistently track and review vulnerabilities, it lacks procedures to
                          ensure that they are resolved. The CMS divisions responsible for
                          tracking and reviewing vulnerabilities have procedures that outline the
                          general steps that they take to perform these tasks. Although contractors
                          have been submitting vulnerability reports for several years, CMS did not
                          begin developing these procedures until June 2010. Furthermore, only one
                          of these CMS divisions has developed procedures to follow up on the
                          implementation of corrective actions to resolve vulnerabilities.

    OEI-03-10-00500       ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   ii
E   X   E C     U T   I    V   E      S   U M      M   A   R Y



                          RECOMMENDATIONS
                          One of the ways that Medicare benefit integrity contractors help
                          prevent fraud, waste, and abuse is by identifying program
                          vulnerabilities. To minimize the financial impact on Medicare, CMS
                          needs to take prompt action to resolve vulnerabilities. Only two of the
                          vulnerabilities reported in 2009 had been resolved as of January 2011.
                          Most of the vulnerability reports from 2009 did not contain information
                          on monetary impact, and in those that did, monetary impact was not
                          reported consistently. Furthermore, none of the vulnerabilities with
                          reported monetary impact had been resolved. Significant action had
                          been taken to resolve two of the vulnerabilities with the greatest
                          monetary impact ($803 million and $99 million). However,
                          implementation of these actions will not be complete until 2012, 3 years
                          after the vulnerabilities were reported.
                          For CMS to gain sufficient oversight of program vulnerabilities, it must
                          have policies and procedures for ensuring the prompt resolution of
                          vulnerabilities. In 2011, CMS was still reviewing vulnerabilities
                          reported in 2008 and 2009 to determine whether they had been resolved
                          or whether action still needed to be taken to resolve them.
                          Therefore, we recommend that CMS:
                          Determine the status of all vulnerabilities that have not been resolved and
                          take action to address them

                          Require all benefit integrity contractors to report monetary impact, when
                          calculable, in a consistent format

                          Ensure that vulnerabilities are resolved by establishing formal written
                          procedures that include timeframes for followup and that outline CMS and
                          contractor responsibilities regarding vulnerability resolution


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS concurred with our first recommendation and is determining the
                          status of all open vulnerabilities and taking action, when possible, to
                          address them. CMS stated that it has determined the status of all
                          MEDIC-identified vulnerabilities.
                          CMS did not concur with our second recommendation. CMS stated that
                          it would be challenging to require all benefit integrity contractors to
                          report the monetary impact for each vulnerability and to use it in a

    OEI-03-10-00500       ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   iii
E   X   E C     U T   I    V   E      S   U M      M   A   R Y


                          consistent methodology. CMS noted that it could be labor intensive for
                          the contractors to determine the dollars at risk for vulnerabilities and
                          that not all vulnerabilities have a monetary impact that results in a loss
                          to the Medicare Trust Fund. Furthermore, CMS stated that different
                          types of vulnerabilities would require different methods of calculating or
                          estimating the monetary impact or would even make such a
                          determination impossible or very difficult because of the time and
                          resources required. We understand that calculating the monetary
                          impact for some vulnerabilities may not be possible and that different
                          types of vulnerabilities would require different methods of calculating
                          monetary impact. However, for cases in which calculating the monetary
                          impact is too burdensome or time consuming, the contractor should
                          report the vulnerabilities and explain why the monetary impact could
                          not be calculated. Based on CMS’s comments, we clarified the wording
                          of this recommendation.
                          CMS concurred in part with our third recommendation. CMS stated
                          that it has standard operating procedures in place and continues to
                          actively manage reported vulnerabilities on a monthly basis. CMS
                          stated that it can establish timeframes for resolution on a case-by-case
                          basis, but said that it will be difficult to establish standard timeframes
                          because actions and resolutions to address vulnerabilities will vary.
                          Although we agree that actions and resolutions will vary depending on
                          the type of vulnerability, it is possible to have standard timeframes for
                          following up to determine the status of the vulnerabilities.




    OEI-03-10-00500       ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   iv
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    As of January 2011, CMS had not resolved or taken significant
                    action to resolve 77 percent of vulnerabilities reported by
                    contractors in 2009. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                    Contractors reported monetary impact for only one-third of
                    vulnerabilities, but their estimated impact was $1.2 billion . . . . . 12

                    Although CMS has recently begun developing procedures to
                    consistently track and review vulnerabilities, it lacks
                    procedures to ensure that they are resolved. . . . . . . . . . . . . . . . . . 14



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                    Agency Comments and Office of Inspector General Response. . . . 17


         APPENDIX
                    Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the extent to which the Centers for Medicare &
                     Medicaid Services (CMS) has resolved vulnerabilities reported by
                     Medicare benefit integrity contractors.
                  2. To determine the monetary impact of the reported vulnerabilities on
                     the Medicare program.
                  3. To review CMS’s procedures for tracking, reviewing, and resolving
                     reported vulnerabilities.


                  BACKGROUND
                  One way that Medicare benefit integrity contractors help prevent fraud,
                  waste, and abuse is by identifying program vulnerabilities. This report
                  provides information on the vulnerabilities reported by Medicare benefit
                  integrity contractors in 2009. Within Medicare Parts A and B, Program
                  Safeguard Contractors (PSC) and Zone Program Integrity Contractors
                  (ZPIC) are responsible for benefit integrity; within Parts C and D,
                  Medicare Drug Integrity Contractors (MEDIC) perform that function.
                  PSCs, ZPICs, and MEDICs are required to submit periodic vulnerability
                  reports to CMS. These reports describe vulnerabilities and may include
                  recommendations for resolving them. These reports also may contain
                  the vulnerabilities’ monetary impact on Medicare—information that
                  allows CMS to understand the scope of the vulnerabilities and to
                  prioritize those needing corrective actions. For this study, we
                  determined the number and monetary impact of vulnerabilities reported
                  by PSCs, ZPICs, and MEDICs in 2009. We reviewed the actions that
                  CMS took to address or resolve these reported vulnerabilities. We also
                  reviewed CMS’s policies and procedures for tracking, reviewing, and
                  resolving the reported vulnerabilities.
                  Medicare Integrity Program Contractors
                  The Health Insurance Portability and Accountability Act of 1996
                  established the Medicare Integrity Program and required CMS to use
                  contractors to perform specific program integrity activities. 1 These
                  activities include, but are not limited to, cost-report auditing, medical
                  review, provider education, and benefit integrity. CMS awards task
                  orders to these contractors to perform specific duties related to program


                    1 P.L. 104-191 § 202, Social Security Act, § 1893(a), 42 U.S.C. § 1395ddd.




OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS       1
I   N T    R O        D   U     C T     I   O   N


                              integrity. These task orders require contractors to review Medicare
                              data to identify cases of potential fraud, investigate these cases, and
                              refer them to law enforcement.
                              Program Safeguard Contractors and Zone Program Integrity Contractors.
                              Beginning in 1999, CMS awarded benefit integrity task orders to PSCs to
                              detect and deter fraud and abuse in Medicare Part A and/or Part B. In
                              2009—the period of review for this study—7 PSCs performed work under
                              18 benefit integrity task orders, with each task order covering a specific
                              geographic jurisdiction.
                              CMS is transitioning the work of PSCs to ZPICs. The transition is part
                              of CMS’s effort to consolidate fraud-fighting work in Parts A, B, C, and
                              D under one type of contractor, the ZPIC. Seven ZPICs will operate in
                              the following geographic zones:
                                    •   Zone 1: American Samoa, California, Guam, Hawaii, the
                                        Mariana Islands, and Nevada.
                                    •   Zone 2: Alaska, Arizona, Idaho, Iowa, Kansas, Missouri,
                                        Montana, Nebraska, North Dakota, Oregon, South Dakota,
                                        Utah, Washington, and Wyoming.
                                    •   Zone 3: Illinois, Indiana, Kentucky, Michigan, Minnesota,
                                        Ohio, and Wisconsin.
                                    •   Zone 4: Colorado, New Mexico, Oklahoma, and Texas.
                                    •   Zone 5: Alabama, Arkansas, Georgia, Louisiana, Mississippi,
                                        North Carolina, South Carolina, Tennessee, Virginia, and
                                        West Virginia.
                                    •   Zone 6: Connecticut; Delaware; Maine; Maryland;
                                        Massachusetts; New Hampshire; New Jersey; New York;
                                        Pennsylvania; Rhode Island; Vermont; and Washington, D.C.
                                    •   Zone 7: Florida, Puerto Rico, and the U.S. Virgin Islands.
                              Contracts for six of the seven ZPIC zones were awarded between
                              September 2008 and April 2011. ZPICs became operational in five
                              zones—1, 2, 4, 5, and 7—between February 2009 and February 2011;
                              ZPIC operations in Zone 3 have been delayed because of a postaward
                              protest. The contract for Zone 6 was awarded in September 2011.
                              ZPICs currently perform work under a benefit integrity task order that
                              includes work for Parts A and B, durable medical equipment, and home
                              health and hospice.


    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   2
I   N T    R O        D   U     C T     I   O   N


                              The activities that PSCs and ZPICs perform are established through
                              each type of contractor’s Statement of Work (SOW). According to the
                              SOWs for both contractor types, PSCs and ZPICs shall review and
                              analyze a variety of data to focus program integrity efforts by
                              (1) identifying program vulnerabilities; (2) identifying providers for
                              review and investigation within their respective jurisdictions;
                              (3) referring potential fraud, waste, and abuse cases to law enforcement;
                              and (4) pursuing administrative actions. 2
                              Medicare Drug Integrity Contractors. The Balanced Budget Act of 1997
                              established Medicare Part C to allow eligible individuals to enroll in
                              health plans offered by private companies approved by Medicare. 3 The
                              Medicare Prescription Drug, Improvement, and Modernization Act of 2003
                              established Medicare Part D to provide prescription drug benefits under
                              Medicare beginning January 1, 2006. 4 In September 2006, CMS awarded
                              contracts to three regional MEDICs—West, North, and Southeast—to
                              address potential fraud, waste, and abuse related to Part D benefits. In
                              2008, CMS added Part C to MEDICs’ oversight.
                              MEDIC West’s contract was not renewed when it ended in
                              September 2008. In the 2 months following, CMS transitioned MEDIC
                              West’s jurisdiction to the two remaining MEDICs. In fall 2009, CMS
                              again restructured the MEDICs, moving from a regionally based
                              program to two national MEDICs with specific areas of focus. MEDIC
                              Southeast became the national Benefit Integrity (BI) MEDIC, and
                              MEDIC North became the national Compliance and Enforcement
                              MEDIC. The BI MEDIC has responsibility for detecting and deterring
                              fraud, waste, and abuse in Parts C and D nationwide.
                              Reporting of Vulnerabilities
                              CMS defines vulnerabilities to the Medicare program as instances of
                              potential fraud, waste, or abuse identified through analyzing and




                                2 CMS, Zone Program Integrity Contractor Statement of Work, § 1.3, p. 49; CMS,

                              Program Safeguard Contractor Statement of Work, ch. 7, § 1, p. 58.
                                3 The Balanced Budget Act of 1997, P.L. 105-33, Title IV, § 4001; Social Security Act,
                              §§ 1851-1859.
                                 4 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003,

                              P.L. 108-173, Title I, § 101(a)(2); Social Security Act, § 1860D-1(a)(2), 42 U.S.C.
                              § 1395w-101.



    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS                   3
I   N T    R O        D   U     C T     I   O   N


                              managing data on Medicare providers, suppliers, and beneficiaries.5
                              Vulnerabilities may be specific (e.g., providers are receiving multiple
                              payments as a result of incorrect coding) or general and programwide
                              (e.g., vulnerabilities exist in the Part D online application process). The
                              types of vulnerabilities and the ways in which they are addressed may
                              differ depending on the Medicare program involved. The vulnerabilities
                              involving fee-for-service payments in Parts A and B may require an
                              approach different from that used for vulnerabilities involving health
                              plans offered by private companies under Medicare Parts C and D.
                              Some methods through which program vulnerabilities may be resolved
                              are claims processing edits, provider education, or issuance of new
                              regulations.
                              PSCs and ZPICs are required to submit to CMS monthly narratives of
                              all vulnerabilities identified in the previous month. PSCs and ZPICs
                              use the CMS Analysis, Reporting, and Tracking System (CMS ARTS) to
                              submit these narratives.
                              Since 2008, PSCs and ZPICs also have been required to submit reports
                              on all vulnerabilities to an electronic vulnerability mailbox, no less than
                              quarterly.6 According to CMS staff, the vulnerability reports submitted
                              to this mailbox are more descriptive than the narratives submitted to
                              CMS ARTS. Within each vulnerability report, PSCs and ZPICs should
                              include a description of how the vulnerability was discovered, a
                              summary of the issues, a description of the methodology,
                              recommendations for resolving the vulnerability, and any action they
                              took to resolve the vulnerability.7 CMS staff stated that PSCs and
                              ZPICs are also required to include monetary impact in these reports.
                              MEDICs are required to submit quarterly vulnerability reports to CMS,
                              listing vulnerabilities they identified during that quarter. 8 The reports
                              should address, to the extent possible, the scope of the vulnerabilities
                              and the extent to which they jeopardize Parts C and D. The MEDICs
                              may also propose to CMS the most effective and efficient ways to
                              address the vulnerabilities. CMS staff stated that MEDICs are not
                              required to include monetary impact in these reports.


                                5 CMS Manual System, Pub. 100-08, Medicare Program Integrity, Transmittal 211,

                              Change Request 5581, June 22, 2007.
                                 6 CMS, Medicare Program Integrity Manual, Pub. 100-04, ch. 4 § 4.31.
                                 7 Ibid.
                                 8 CMS, Medicare Prescription Drug Integrity Contractor (MEDIC) Statement of Work,
                              § 8.2.12.



    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS               4
I   N T    R O        D   U     C T     I   O   N


                              CMS Divisions Responsible for Tracking and Reviewing Vulnerabilities
                              Two CMS divisions review PSC- and ZPIC-reported vulnerabilities: the
                              Division of Medicare Integrity Contractor Operations (DMICO) within
                              the Center for Program Integrity (CPI) and the Division of Data
                              Analysis (DDA) within the Office of Financial Management.
                              DMICO takes the lead role in tracking and reviewing PSC- and
                              ZPIC-reported vulnerabilities. It also decides how to address them and
                              how to coordinate with other CMS components in doing so.
                              DDA identifies and addresses improper payments at a programwide
                              level. To minimize the risk for improper payments, DDA reviews PSC-
                              and ZPIC-reported vulnerabilities to compare them with vulnerabilities
                              reported by Medicare administrative contractors (MAC) 9 and recovery
                              audit contractors (RAC). 10
                              The Division of Plan Oversight and Accountability within CPI is
                              responsible for tracking, reviewing, and coordinating efforts to resolve
                              MEDIC-reported vulnerabilities.
                              Related Studies by the Government Accountability Office
                              In March 2010, the Government Accountability Office (GAO) issued a
                              report that found that CMS did not establish an adequate process to
                              address vulnerabilities identified by Medicare RACs, which are
                              responsible for postpayment claims review in Medicare Parts A
                              and B. 11 Specifically, GAO stated that CMS “did not develop a plan to
                              take corrective action or implement sufficient monitoring, oversight,
                              and control activities to ensure these significant vulnerabilities were
                              addressed.”
                              In March 2011 testimony before the Senate Subcommittee on Federal
                              Financial Management, Government Information, Federal Services, and
                              International Security, GAO officials recommended that CMS
                              implement prior report recommendations, including developing a robust




                                9 MACs process and pay claims for Parts A and B.
                                10 RACs conduct postpayment claims reviews to detect and correct past improper

                              payments in Medicare Parts A and B. Unlike PSCs and ZPICs, RACs are not responsible
                              for detecting fraud, waste, and abuse.
                                 11 GAO, Medicare Recovery Audit Contracting: Weaknesses Remain in Addressing

                              Vulnerabilities to Improper Payments, Although Improvements Made to Contractor
                              Oversight (GAO-10-143), March 2010.



    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS              5
I   N T    R O        D   U     C T      I   O   N


                              process for addressing identified vulnerabilities.12


                              METHODOLOGY
                              Scope
                              Our study focused on the vulnerabilities reported by the PSCs, ZPICs,
                              and MEDICs that had benefit integrity task orders in 2009. We chose
                              2009 because it was the first year in which all three types of contractors
                              were operational. This timeframe also gave CMS time to take action, as
                              we began collecting data in December 2010.
                              The Zone 4 and Zone 7 ZPICs were not fully operational until February
                              1, 2009; therefore, the earliest vulnerability reports collected for these
                              2 ZPICs were from March 1, 2009. The Zone 4 and Zone 7 ZPICs were
                              the only ZPICs that had completed their first contract year in 2009. 13
                              Additionally, because MEDIC West’s contract was not renewed when it
                              ended in September 2008, we did not review vulnerabilities reported by
                              this MEDIC.
                              Data Collection
                              In December 2010, we requested from CMS all vulnerability reports
                              submitted by PSCs and ZPICs in 2009. Specifically, we requested the
                              vulnerability narratives submitted by PSCs for 2009 and by ZPICs from
                              February 1, 2009, through December 31, 2009. We also requested the
                              quarterly reports submitted by the MEDICs for 2009.
                              In January 2011, we received from CMS all vulnerability reports
                              submitted by contractors. These included either the narratives from
                              CMS ARTS or the more detailed vulnerability reports that were
                              submitted to the electronic vulnerability mailbox.
                              We also asked CMS to provide the following additional information for
                              each vulnerability reported:
                                     •   the specific contractor that reported the vulnerability;



                                12 Medicare and Medicaid Fraud, Waste, and Abuse: Effective Implementation of Recent
                              Laws and Agency Actions Could Help Reduce Improper Payments, Subcommittee on
                              Federal Financial Management, Government Information, Federal Services, and
                              International Security, Committee on Homeland Security and Governmental Affairs,
                              U.S. Senate, 112 Cong. (March 9, 2011) (Statement of Kathleen M. King, Director of Health
                              Care, and Kay L. Daly, Director of Financial Management and Assurance, GAO).
                                13 The first contract year for the Zone 4 and Zone 7 ZPICs was September 30, 2008,
                              through October 31, 2009.



    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS                6
I   N T    R O        D   U     C T      I   O   N


                                     •   the date of the report in which the vulnerability was
                                         identified;
                                     •   a description of the vulnerability;
                                     •   a detailed description of any action taken by CMS that
                                         resolved or addressed the vulnerability; 14
                                     •   whether the action taken to resolve or address the
                                         vulnerability was a result of a contractor-suggested
                                         recommendation;
                                     •   the date that the action taken to resolve or address the
                                         vulnerability was implemented; and
                                     •   if no action was taken to resolve or address the vulnerability,
                                         the reason why.
                              In addition, we conducted structured interviews with relevant CMS
                              staff regarding the policies and procedures for handling
                              vulnerabilities reported by PSCs, ZPICs, and MEDICs. Our questions
                              focused on the roles of different staff in tracking, reviewing, and
                              resolving contractor-reported vulnerabilities; procedures for tracking
                              and reviewing vulnerability reports; and procedures for resolving
                              reported vulnerabilities. We also reviewed all available written
                              policies and procedures outlining how CMS tracks, reviews, and
                              resolves contractor-reported vulnerabilities.
                              Data Analysis
                              From the vulnerability reports and information collected from CMS, we
                              determined the number of vulnerabilities reported by each contractor.
                              PSCs, ZPICs, and MEDICs reported a total of 70 vulnerabilities in
                              2009, with PSCs reporting 34 vulnerabilities, ZPICs reporting 11, and
                              MEDICs reporting 25. For 1 of the 34 PSC-reported vulnerabilities,
                              CMS could not find a corresponding report and, therefore, could not
                              determine whether an actual vulnerability was reported.15 Of the
                              25 MEDIC-reported vulnerabilities, CMS determined that 5 were not
                              actual vulnerabilities and 2 were outside the scope of CMS’s



                                14 This included actions taken by contractors as a result of discussions and collaboration

                              with CMS.
                                15 In CMS ARTS, a vulnerability report was noted as submitted, but it is unknown

                              whether this report identified any vulnerabilities because no corresponding vulnerability
                              report was attached to CMS ARTS or sent to the vulnerability mailbox.



    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS                       7
I   N T    R O        D   U     C T     I   O   N


                              responsibilities for Parts C and D. As a result, the total number of
                              vulnerabilities used for analysis was 62.
                              We categorized the vulnerabilities by type and determined the number
                              of each type of vulnerability by contractor.
                              We used the information collected from CMS to identify any significant
                              actions that CMS took to resolve each reported vulnerability. We
                              determined actions to be significant if CMS described specific steps that
                              it took to resolve the vulnerability. We also determined CMS’s actions
                              to be significant if, as a result, a contractor took action to resolve a
                              vulnerability (e.g., if CMS discussed the vulnerability with the
                              contractor and approved the contractor’s plan to resolve it).
                              The actions that we determined not to be significant were mainly steps
                              that CMS took to review, rather than resolve, the vulnerabilities. For
                              example, CMS provided dates and details of correspondence with
                              contractors or other CMS components, but did not report what, if any,
                              corrective actions were taken as a result.
                              Based on our analysis of CMS’s description of actions taken, we
                              determined the number of vulnerabilities that were resolved, the
                              number for which significant actions were taken to resolve the
                              vulnerabilities, and the number of vulnerabilities that were not
                              resolved.
                              We reviewed the vulnerability narratives and reports to determine what
                              types of recommendations contractors made to CMS to resolve the
                              vulnerabilities. We also asked CMS to tell us whether any actions it
                              took were the result of contractor recommendations.
                              Finally, we calculated the estimated monetary impact on Medicare of
                              the contractor-reported vulnerabilities. For each vulnerability, we
                              calculated monetary impact by using the contractor-reported actual or
                              estimated dollars allowed, paid, overpaid, at risk, or lost as a result of
                              the vulnerability. Because monetary impact was reported
                              inconsistently (e.g., some contractors reported monetary impact for a
                              certain year, whereas others reported it for a range of years; some
                              reported it for an individual provider, whereas others reported it for a
                              group of providers), we aggregated monetary impact regardless of how it
                              was reported.




    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   8
I   N T    R O        D   U     C T     I   O   N


                              Limitations
                              We did not ask CMS for documentation of actions taken to resolve the
                              vulnerabilities. Therefore, we did not verify that the reported actions
                              were taken.
                              Standards
                              This study was conducted in accordance with the Quality Standards
                              for Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-03-10-00500           ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   9
       F I N D I N G S

   As of January 2011, CMS had not resolved or              PSCs, ZPICs, and MEDICs
taken significant action to resolve 77 percent of           reported 62 vulnerabilities in
                                                            2009. Seventy-seven percent (48)
  vulnerabilities reported by contractors in 2009
                                                            of these had not been resolved as
                      of January 2011, nor had CMS taken significant action to resolve them.
                      CMS indicated that of these 48 vulnerabilities, 20 were “currently under
                      review” and 3 required additional analysis to determine whether they
                      were actual vulnerabilities. For the remaining 25, we determined from
                      CMS’s description that no action was taken or that the action taken was
                      not significant.
                      CMS resolved or took significant actions to resolve 14 vulnerabilities
                      Only two vulnerabilities were resolved. According to the report for one of these
                      vulnerabilities, no uniform guidelines were in place for contractors to
                      calculate the monetary “loss to government” for cases of fraud and abuse.
                      The loss to the U.S. Government is often requested by Federal law
                      enforcement agencies and is one of the key factors considered in
                      determining sentences for defendants found guilty of health care fraud. To
                      resolve this vulnerability, CMS developed a methodology for contractors to
                      use to calculate loss to government.
                      The other vulnerability involved payment for unnecessary home health
                      visits to diabetic patients. CMS adopted a 10-percent cap on outlier
                      payments for home health agencies to reduce payments for unnecessary
                      services.16
                      CMS took significant action to resolve 12 vulnerabilities. Actions that CMS
                      took to resolve these vulnerabilities include changing policy, conducting
                      medical review or additional analysis of certain providers, issuing a
                      national fraud alert, establishing edits 17, educating contractors,
                      providing contractors with access to data, and working to implement the
                      National Provider Identifier (NPI) number as a single identifier for
                      prescription drug prescribers for Medicare Part D.
                      Table 1 shows the status of the vulnerabilities reported by PSCs, ZPICs,
                      and MEDICs in 2009.

                         16 Medicare pays home health agencies a predetermined base payment for each 60-day

                      episode of care per beneficiary. An outlier payment is an addition or adjustment to that
                      base payment amount to reflect unusual variation in the type or amount of medically
                      necessary home health care.
                         17 Edits—system processes that use automated logic—can be used to prevent improper

                      claims from being paid or to flag claims for further review. Edits are a means of verifying
                      and validating claims data and are necessary to detect errors or potential errors.



    OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS                      10
F   I   N   D I       N G    S


                            Table 1: Status of Vulnerabilities Reported by Contractors in
                            2009

                             Contractor Type                   Status of Vulnerability


                                                                                 Significant
                                                                      Not           Actions
                                                                                                   Resolved      Total
                                                                 Resolved         Taken To
                                                                                    Resolve

                             PSC                                          33                0                0     33

                             ZPIC                                            5              5                1     11

                             MEDIC                                        10                7                1     18

                                 Total                                    48               12                2     62

                            Source: OIG analysis of the status of vulnerabilities reported to CMS in 2009.


                            Over half of contractors’ reports regarding vulnerabilities included
                            detailed recommendations for CMS to resolve the vulnerabilities.
                            However, many of the significant actions that CMS took to resolve
                            vulnerabilities were not the result of these contractor recommendations.
                            One of the recommendations was that CMS mandate periodic reviews of
                            home health agency cost reports to determine the true cost of providing
                            home health services. For 9 of the 14 vulnerabilities for which CMS
                            took action, the actions it took were not those recommended by
                            contractors.
                            Coding and/or billing vulnerabilities were the most commonly reported type
                            of vulnerabilities
                            Over half of the vulnerabilities reported by PSCs and ZPICs related to
                            coding and/or billing. Some examples include: a claims processing system
                            allowed certain claims to be paid based on incorrect codes, nonphysician
                            practitioners inappropriately billed for services, and providers billed more
                            than the allowed number of services.
                            The vulnerabilities most commonly reported by MEDICs were those
                            related to provider identifiers. Examples include use of provider
                            identifiers of deceased providers and use of invalid provider identifiers to
                            bill Medicare.

                            Table 2 shows the number of each type of vulnerability reported by each
                            contractor.




    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED         BY   BENEFIT INTEGRITY CONTRACTORS               11
F   I   N   D I       N G    S



                            Table 2: Types of Vulnerabilities Reported by Contractor
                             Vulnerability Type               Contractor Type

                                                                        PSC               ZPIC          MEDIC             Total

                             Coding/Billing                                20                 6                1               27
                             Lack of Medicare
                                                                              4               2                3               9
                             Guidelines
                             Provider Enrollment                              5               2                0               7

                             Provider Identifiers                             1               0                5               6

                             Beneficiary-Related                              2               0                3               5

                             Data Systems/Claims
                                                                              1               1                2               4
                             Processing

                             Procedure/Process                                0               0                2               2

                             Marketing Violations                             0               0                2               2

                                 Total                                     33                11              18                62

                            Source: OIG analysis of vulnerabilities reported by CMS’s benefit integrity contractors in 2009.




Contractors reported monetary impact for only                      Only 21 of the 62 vulnerabilities
                                                                   reviewed had an associated
one-third of vulnerabilities, but their estimated
                                                                   monetary impact reported by the
                         impact was $1.2 billion
                                                                   contractor. According to CMS
                                                                   staff, PSCs and ZPICs are
                            required to report monetary impact in their vulnerability reports.
                            However, less than half of the vulnerabilities submitted by PSCs and
                            ZPICs in 2009 had an associated monetary impact reported by the
                            contractor. MEDICs are not required to report monetary impact, and
                            few of the vulnerabilities reported by MEDICs had reports containing
                            this information.
                            For these 21 vulnerabilities, the estimated monetary impact reported
                            was $1.2 billion, with the monetary impact of individual vulnerabilities
                            ranging from $77,692 to $803,025,113. 18 None of these vulnerabilities
                            had been fully resolved as of January 2011.


                               18 To determine monetary impact, we aggregated estimates of overpayments, dollars at

                            risk, and dollars lost as reported by contractors. The estimated amount is not necessarily
                            the impact during a 1-year period. Because monetary impact was not reported for the same
                            years or timeframes by contractors—some contractors reported monetary impact for a
                            single year, whereas others reported monetary impact for a range of years—we aggregated
                            all monetary impact regardless of time.



    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED          BY   BENEFIT INTEGRITY CONTRACTORS                         12
F   I   N   D I       N G    S


                            For 4 of the 21 vulnerabilities with reported monetary impact, CMS has
                            taken significant actions to resolve the vulnerabilities, but has yet to
                            fully resolve them. Two of these vulnerabilities had the highest
                            amounts of reported monetary impact ($803 million and $99 million),
                            and both involve Part D provider identifiers. The vulnerability with the
                            reported monetary impact of $803 million involved invalid prescriber
                            identifiers. According to the vulnerability report, between
                            January 1, 2006, and June 24, 2009, Medicare paid a total of
                            $803,025,113 for claims submitted using the top five prescriber
                            identifiers, although none were bona fide identifiers. To address
                            vulnerabilities with Part D provider identifiers, CMS is working to
                            implement use of a single identifier, the NPI, in the prescriber ID field
                            of the prescription drug event (PDE) data. 19 CMS also stated that it
                            will implement edits in the Drug Data Processing System (DDPS) to
                            resolve these vulnerabilities, but that these edits will be not be
                            implemented until 2012. 20
                            Although CMS has taken significant action to resolve the 2 vulnerabilities
                            with the largest monetary impacts, the estimated monetary impact for the
                            17 vulnerabilities that (as of January 2011) had not been resolved or for
                            which significant action had not been taken is $202 million.
                            Monetary impact was not reported consistently
                            Some contractors estimated the monetary impact by analyzing the data
                            of an individual provider, whereas others analyzed data from a select
                            sample of providers. Some reported monetary impact for a certain year,
                            whereas others reported monetary impact for a range of years. Because
                            we aggregated monetary impact regardless of time period or provider
                            sample, the actual monetary impact of these vulnerabilities could be
                            significantly greater than the estimated
                            $1.2 billion.




                              19 Prescription drug plans submit PDE data to CMS for prescriptions filled under

                            Medicare Part D. The PDE record contains prescription drug cost and payment data.
                            Among the data fields included in this record is the prescriber identifier number.
                            Currently, prescribers can enter into this field any of the following: NPI, Unique Physician
                            Identification Number, State license number, or Drug Enforcement Administration number.
                              20 PDE data are processed in DDPS. Edits in DDPS evaluate incoming PDE data and
                            confirm that the PDE data are valid.



    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS                 13
F   I   N   D I       N G    S



Although CMS has recently begun developing                          All three CMS divisions
  procedures to consistently track and review                       responsible for tracking and
                                                                    reviewing vulnerabilities have
 vulnerabilities, it lacks procedures to ensure
                                                                    procedures that outline the steps
                           that they are resolved
                                                                    they take to track and review
                            vulnerabilities. Although contractors have been submitting
                            vulnerability reports since at least 2007, CMS did not begin developing
                            these procedures until June 2010. Furthermore, only one of these
                            divisions has developed procedures to follow up on the implementation
                            of corrective actions to resolve vulnerabilities.
                            CMS has begun developing new procedures to track and review
                            vulnerabilities
                            Currently, each CMS division responsible for tracking and reviewing
                            PSC-, ZPIC-, and MEDIC-reported vulnerabilities has its own tracking
                            system and procedures for reviewing vulnerabilities. Two divisions
                            review PSC- and ZPIC-reported vulnerabilities: one division reviews
                            vulnerabilities involving improper payments, and the other tracks all
                            vulnerabilities but takes the lead on tracking vulnerabilities involving
                            fraud, waste, and abuse. PSCs and ZPICs have been submitting
                            vulnerability reports since at least 2008; however, it was not until 2010
                            that these two CMS divisions developed their own procedures for
                            handling PSC- and ZPIC-reported vulnerabilities.
                            A third CMS division is responsible for tracking and reviewing
                            MEDIC-reported vulnerabilities. Although MEDICs have been
                            reporting vulnerabilities quarterly since at least 2007, this CMS
                            division only recently began drafting standard operating procedures to
                            address the reported vulnerabilities and to delineate the roles and
                            responsibilities of division staff in this process. It also did not have a
                            system to track MEDIC-reported vulnerabilities until February 2011.
                            CMS is developing a centralized vulnerability tracking
                            system, the Program Vulnerability Tracking System (PVTS). Once it
                            becomes operational, PVTS will enable all three CMS divisions to track
                            vulnerabilities. Contractors also will be able to directly submit their
                            vulnerability reports into PVTS.
                            Not all CMS divisions have procedures to ensure that vulnerabilities are
                            resolved
                            In most cases, the CMS divisions responsible for tracking and reviewing
                            vulnerabilities are not responsible for taking direct action to resolve



    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   14
F   I   N   D I       N G    S


                            them. Instead, division staff refer vulnerabilities to other CMS
                            components that have authority to take corrective action.
                            For the MEDIC-reported vulnerabilities, CMS division staff stated that
                            because they are not directly involved with resolving vulnerabilities,
                            they do not routinely keep track of corrective actions implemented to
                            resolve them. For some of these MEDIC-reported vulnerabilities,
                            division staff must coordinate with other components within CMS that
                            take action for resolution. Division staff stated that in these cases,
                            corrective actions are recorded once the resolution has been
                            implemented (e.g., regulatory language has been changed or a system
                            change has been made). However, division staff do not have procedures
                            for routinely following up to determine whether vulnerabilities have
                            been resolved.
                            Similarly, the CMS division responsible for tracking and reviewing
                            PSC- and ZPIC-reported vulnerabilities does not have procedures for
                            following up to ensure that vulnerabilities have been resolved. Once a
                            vulnerability is referred to the appropriate CMS component, the
                            division considers the status of the vulnerability to be “closed.”
                            The division responsible for reviewing PSC- and ZPIC-reported
                            vulnerabilities involving improper payments across the Medicare
                            program has developed a standard operating protocol for tracking the
                            implementation of corrective actions. However, these procedures do not
                            establish timeframes for following up with the CMS components to
                            ensure prompt resolution of vulnerabilities.




    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   15
   R E C O M M E N D A T I O N S




                  One of the ways that Medicare benefit integrity contractors help
                  prevent fraud, waste, and abuse is by identifying program
                  vulnerabilities. To minimize the financial impact on Medicare, CMS
                  needs to take prompt action to resolve vulnerabilities. Only two of the
                  vulnerabilities reported in 2009 had been resolved as of January 2011.
                  Given that the estimated monetary impact of vulnerabilities reported in
                  2009 was over a billion dollars, millions of dollars may continue to be at
                  risk each year if vulnerabilities are not being promptly and effectively
                  resolved.
                  It is also important that vulnerabilities’ monetary impact be
                  consistently reported and tracked. For most of the vulnerabilities in
                  2009, contractors did not report monetary impact. When contractors did
                  report monetary impact, it was not reported consistently. Because
                  monetary impact is often used to prioritize vulnerabilities needing
                  corrective action, the consistent reporting of monetary impact will
                  ensure that CMS has all the necessary information to make informed
                  decisions about resolving vulnerabilities. None of the vulnerabilities
                  with reported monetary impact have been resolved, although CMS has
                  taken significant action to resolve the two with the greatest monetary
                  impact ($803 million and $99 million). However, implementation of
                  these actions will not be complete until 2012, 3 years after the
                  vulnerabilities were reported.
                  To gain sufficient oversight of program vulnerabilities, CMS needs to
                  have policies and procedures for ensuring the prompt resolution of
                  vulnerabilities. Contractors have been reporting vulnerabilities for
                  several years; however, CMS has not been conducting routine followup
                  to determine whether corrective actions have been taken to resolve the
                  reported vulnerabilities. In 2011, CMS was still reviewing
                  vulnerabilities reported in 2008 and 2009 to determine whether they
                  had been resolved or whether action still needed to be taken to resolve
                  them.
                  Therefore, we recommend that CMS:

                  Determine the status of all vulnerabilities that have not been resolved and
                  take action to address them
                  CMS needs to promptly follow up on the vulnerabilities reported in 2009
                  that have not been resolved. CMS needs to determine what actions, if


OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   16
R   E C     O    M    M   E   N D    A T     I   O   N   S


                          any, have been taken to resolve them in the 2 years since they were
                          reported.
                          Require all benefit integrity contractors to report monetary impact, when
                          calculable, in a consistent format
                          PSCs and ZPICs have been required to report vulnerabilities for several
                          years. According to CMS staff, PSCs and ZPICs were required to
                          submit vulnerability reports using a revised report template beginning
                          in December 2010. This revised template includes the amount of
                          estimated or actual dollars at risk, if known. MEDICs are not required
                          to report monetary impact. CMS should ensure that PSCs, ZPICs, and
                          MEDICs report actual or estimated monetary impact whenever
                          possible. However, when it would be too burdensome or
                          time consuming to estimate monetary impact, contractors should still
                          report the vulnerability and explain why the calculation of monetary
                          impact was not possible. Additionally, to accurately assess
                          vulnerabilities’ monetary impact on Medicare and to more effectively
                          prioritize the actions needed, CMS should develop a consistent way for
                          benefit integrity contractors to report this impact. For example, CMS
                          should request that when possible contractors report monetary impact
                          for a standard timeframe, such as 1 year.
                          Ensure that vulnerabilities are resolved by establishing formal written
                          procedures that include timeframes for followup and that outline CMS and
                          contractor responsibilities regarding vulnerability resolution
                          Because contractors and different CMS components are involved in
                          resolving vulnerabilities, coordination is essential for prompt resolution.
                          CMS needs to establish formal written procedures that include
                          timeframes for following up with contractors and other involved CMS
                          components to ensure that vulnerabilities are resolved promptly.
                          Procedures should also include specific roles and responsibilities of CMS
                          and contractors in ensuring that vulnerabilities are resolved.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE
                          CMS acknowledged the importance of identifying vulnerabilities in
                          preventing fraud, waste, and abuse. CMS also acknowledged the
                          importance of minimizing the financial impact on Medicare by taking
                          prompt action to resolve vulnerabilities. CMS concurred with our first
                          recommendation and is determining the status of all open
                          vulnerabilities and taking action, when possible, to address them. CMS


    OEI-03-10-00500       ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   17
R   E C     O    M    M   E   N D    A T     I   O   N   S


                          stated that it has determined the status of all vulnerabilities identified
                          by the MEDICs.
                          CMS did not concur with our second recommendation. CMS stated that
                          it would be challenging to require all benefit integrity contractors to
                          report the monetary impact for each vulnerability and to use it in a
                          consistent methodology. CMS noted that it could be labor intensive for
                          the contractors to determine the dollars at risk for vulnerabilities and
                          that not all vulnerabilities have a monetary impact that results in a loss
                          to the Medicare Trust Fund. Furthermore, CMS states that different
                          types of vulnerabilities would require different methods of calculating or
                          estimating the monetary impact or would even make such a
                          determination impossible or very difficult because of the time and
                          resources required. We understand that calculating the monetary
                          impact for some vulnerabilities may not be possible. We also
                          understand that different types of vulnerabilities would require
                          different methods of calculating monetary impact. However, for cases in
                          which calculating the monetary impact is too burdensome or time
                          consuming, the contractor should report the vulnerabilities and explain
                          why the monetary impact could not be calculated. Based on CMS’
                          comments, we clarified the wording of this recommendation.
                          CMS concurred in part with our third recommendation. CMS stated
                          that it has standard operating procedures in place and continues to
                          actively manage reported vulnerabilities on a monthly basis. CMS
                          stated that it can establish timeframes for resolution on a case-by-case
                          basis, but said that it will be difficult to establish standard timeframes
                          because actions and resolutions to address vulnerabilities will vary.
                          Although we agree that actions and resolutions vary depending on the
                          type of vulnerability, it is possible to have standard timeframes for
                          following up to determine the status of the vulnerabilities. Standard
                          intervals, such as every 6 months, for following up with the various
                          CMS components and staff responsible for addressing vulnerabilities
                          would ensure that vulnerabilities are being appropriately and promptly
                          addressed, regardless of the specific actions and resolutions that are
                          implemented.
                          The full text of CMS’s comments is provided in the Appendix.




    OEI-03-10-00500       ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   18
              A P PEN D                         x
                  Agency Comments




(:S'r'f-
 / " '..1«.....



                    DEPARTMENT OF HEALm & HUMAN SERVICES                                      Centers for Medicare & Medicaid Services


                                                                                              Administrator
                                                                                              Washlnglon, DC 2020t




                  DATE: 	        ,OCT 26 20111
                  TO: 	         Daniel R. Levinson 

                                Inspector General 

                                                              /S/
                  FROM: 	       Donald M. Berwick, M.D. 

                                Administrator 


                  SUBJECT: 	 Office ofInspector General (OIG) Draft Report: "Addressing Vulnerabilities
                             Reported by Medicare Benefit Integrity Contractors" (OEI-03-! 0-00500)


                  The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                  comment on the Office of Inspector General (OIG) draft report entitled, "Addressing
                  Vulnerabilities Reported by Medicare Benefit Integrity Contractors." This report had mUltiple
                  objectives. First, it seeks to determine whether CMS resolved vulnerabilities reported by
                  Medicare benefit integrity contractors. Secondly, it determined the monetary impact of the
                  reported vulnerabilities on the Medicare program, and lastly, the report reviews CMS' procedures
                  for tracking, reviewing, and resolving reported vulnerabilities.

                  One of the ways that Medicare program integrity contractors help prevent fraud, waste, and
                  abuse is by identifying program vulnerabilities. To minimize the financial impact of these
                  vulnerabilities on the Medicare program, CMS needs to take prompt action to resolve them.
                  CMS currently has vulnerability standard operating procedures in place and continues to actively
                  manage reported vulnerabilities on a monthly basis. CMS is collaborating and coordinating
                  throughout the Agency to address program vulnerabilities, as appropriate. We note that CMS
                  cannot always resolve the vulnerabilities or resolve them as promptly as CMS would like due to
                  various constraints. For example, the magnitude and complexity of the resolution, such as
                  changing a regulation or requesting a system change, may require significant time to resolve the
                  vulnerability. Additionally, some vulnerabilities require legislative changes to resolve,

                  We appreciate the OIG's efforts in working with CMS to help ensure that vulnerabilities are
                  addressed. Our response to each of the OIG recommendations and other comments follow.

                  OIG Recommendation

                  Determine the status of all vulnerabilities that have not been resolved and take action to address
                  them.




       OEI·03·10·00500             ADDRESSING VULNERABILITIES REPORTED BY BENEFIT INTEGRITY CONTRACTORS                                  19
A   P P     E   N     D I    X




    OEI-03-10-00500         ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   20
OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   21
OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   22
   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.
                  Maria Schepise Johnson served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Courtney Hilts. Central office staff who contributed include
                  Scott Manley.




OEI-03-10-00500   ADDRESSING VULNERABILITIES REPORTED   BY   BENEFIT INTEGRITY CONTRACTORS   23
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
